 DEPARTMENT OF HOMELAND SECURITY

      Office of Inspector General



   A Review of the Top Officials 3 Exercise




    Office of Inspections and Special Reviews



OIG-06-07                        November 2005
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared by our office as
part of our DHS oversight responsibilities to promote economy, effectiveness, and efficiency within
the department.

This report assesses efforts undertaken by the Office of State and Local Government Coordination
and Preparedness to develop, plan, coordinate, and conduct the Top Officials 3 (TOPOFF 3)
homeland security readiness and response exercise and highlights potential areas that may affect the
program’s overall effectiveness. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observations of the TOPOFF 3 Full Scale Exercise and Large Scale
Game, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                              Richard L. Skinner
                                              Inspector General
Table of Contents


  Executive Summary .........................................................................................................................1

  Background ......................................................................................................................................3

  Results of Review ..........................................................................................................................11

          Exercise Objectives Were Generally Met But Challenges Remain......................................12

          Integration and Participation of the Private Sector and Department of Defense..................22

          Additional Issues Which May Affect TOPOFF Exercise Effectiveness ..............................27

          Management Comments and OIG Analysis .........................................................................32


Appendices
  Appendix A:            Purpose, Scope, and Methodology .......................................................................39
  Appendix B:            Management Response to Draft Report ...............................................................40
  Appendix C:            Federal Departments and Agencies Represented During TOPOFF 3 ..................71
  Appendix D:            Legislation and Policy Used as Framework for the TOPOFF Exercise Series ....72
  Appendix E:            Additional National Requirements and Authorizations Prior to DHS .................74
  Appendix F:            National Response Plan Implementation Effective Dates....................................75
  Appendix G:            SLGCP’s TOPOFF 3 Expenditures as of July 2005 ............................................76
  Appendix H:            Major Contributors to This Report.......................................................................77
  Appendix I:            Report Distribution...............................................................................................78




                                                A Review of the Top Officials 3 Exercise
Table of Contents

Abbreviations
  CBRNE         Chemical, Biological, Radiological, Nuclear, Explosive
  DEST          Domestic Emergency Support Team
  DHS           Department of Homeland Security
  DoD           Department of Defense
  DOJ           Department of Justice
  EST           Exercise Support Team
  FBI           Federal Bureau of Investigation
  FCO           Federal Coordinating Officer
  FEMA          Federal Emergency Management Agency
  HHS           Department of Health and Human Services
  HSAS          Homeland Security Advisory System
  HSEEP         Homeland Security Exercise and Evaluation Program
  FRP           Federal Response Plan
  FY            Fiscal Year
  HSAS          Homeland Security Advisory System
  HSC           Homeland Security Council
  HSOC          Homeland Security Operations Center
  HSPD          Homeland Security Presidential Directive
  IIMG          Interagency Incident Management Group
  JOC           Joint Operations Center
  JFO           Joint Field Office
  JTF           Joint Task Force
  MSEL          Master Scenario Events List
  ISAC          Information Analysis Sharing Center
  NICC          National Infrastructure Coordination Center
  NIMS          National Incident Management System
  NRP           National Response Plan
  OIG           Office of Inspector General
  PFO           Principal Federal Official
  SHSP          State Homeland Security Program
  SLGCP         Office of State and Local Government Coordination and Preparedness
  TCL           Target Capabilities List
  TOPOFF        Top Officials Exercise
  UASI          Urban Area Security Initiative
  VNN           Virtual News Network
  UTL           Universal Task List
  WMD           Weapons of Mass Destruction




                      A Review of the Top Officials 3 Exercise
OIG
Department of Homeland Security
Office of Inspector General


  Executive Summary
                The Top Officials Exercise (TOPOFF) is a congressionally mandated biennial
                cycle of seminars, planning events, and national exercises designed to
                strengthen the Unites States’ capacity to prevent, prepare for, respond to, and
                recover from large scale terrorist attacks. Every two years, the cycle
                culminates in an exercise that simulates a coordinated terrorist attack
                involving biological, chemical, radiological, or weapons of mass destruction
                (WMD). The exercises seek to draw the participation of top officials and key
                personnel from all levels of government who have domestic response and
                consequence management roles and responsibilities in actual terrorist events.
                The Department of Homeland Security’s (DHS) Office of State and Local
                Government Coordination and Preparedness (SLGCP) sponsors the TOPOFF
                series plus manages the design, planning, conduct, and evaluation of the
                exercises.

                The TOPOFF 3 full scale exercise, conducted from April 4–8, 2005, was the
                third in the series, and by any measure the most ambitious civilian terrorism
                response exercise ever conducted. The design incorporated many more
                elements, roles, and participants than in previous exercises and the extent of
                play involved new challenges. For example, the recently released National
                Response Plan (NRP) and National Incident Management System (NIMS)
                were used as both the framework and approach for response and incident
                management. For the first time, pre-exercise intelligence play was also added.
                In addition, the exercise sought to synchronize national goals and objectives,
                improve international coordination and cooperation during a linked terrorist
                incident response, and assess as well as strengthen government, non-
                government, and private sector partnerships in response to WMD incidents.

                The efforts of SLGCP in undertaking many complex and cross cutting issues
                within the context of TOPOFF 3 should be noted. It successfully engaged and
                partnered with 27 federal, 30 state, and 44 local departments and agencies in
                addition to 156 private sector organizations in a yearlong development and
                planning process to coordinate and stage TOPOFF 3 events.




                                A Review of the Top Officials 3 Exercise
                                                Page 1
The exercise focused on four functional areas to test national preparedness
goals and objectives: Incident Management, Intelligence and Investigation,
Public Information, and Evaluation. Overall, objectives were addressed and
met. However, there is room for improved coordination to enhance the
effectiveness of the exercise series. For example, there were opportunities for
the private sector and federal, state, and local governments to work together in
responding to and recovering from simultaneous terrorist events, but the
exercise highlighted - at all levels of government - a fundamental lack of
understanding for the principles and protocols set forth in the NRP and NIMS.
Further, although private sector and Department of Defense (DoD)
engagement was for the most part successful, there are integration issues that
require more discussion and analysis.

Also, we have highlighted three principal issues that might affect the overall
effectiveness of the series. The first concerns the high investment and cost
required of participating states and whether or how the federal government
should provide funding assistance. States voiced concerns about having to use
funding from their DHS grants as a prerequisite for selection and that their in-
kind expenses were not reimbursed. Further, federal departments and
agencies said they must use funds from their base operating budgets to plan
and participate, which may have resulted in limiting the resources they could
commit. The second issue concerns DHS’ reliance on contractor expertise
and support. Institutional knowledge of great value to SLGCP would be lost
if the current contactor was no longer actively engaged. Finally, TOPOFF 3
highlighted unresolved issues from previous exercises that continue to affect
and inhibit the ability of organizations at all levels to effectively coordinate an
integrated response. SLGCP is responsible for the mitigation of issues related
to exercise planning, development, management, and execution. However, it
is recognized that actions required in correcting unresolved policy issues fall
beyond the scope and authority of SLGCP.

Our report contains recommendations for more emphasis on training and
exercising NRP and NIMS; developing standard operating procedures to
define roles; clarifying Incident of National Significance designations;
developing systems to track and share information more openly and
efficiently; improving private sector information sharing and understanding of
federal roles in response to various declarations; engaging participants early in
exercise development; creating more realistic and plausible scenarios;
soliciting federal costs associated with planning and participation; and
developing systematic processes to document issues and create avenues for
resolution.


                 A Review of the Top Officials 3 Exercise
                                 Page 2
Background
                           TOPOFF exercises are constructed to examine the relationships among
                           federal, state, and local jurisdictions in response to simulated terrorist threats
                           and acts. A solicitation for hosts is sent to all states and territories. Of those
                           applying, two are selected for each exercise cycle. As a prerequisite, states
                           must agree to use grant funding from DHS’ Urban Area Security Initiative
                           (UASI) program and the State Homeland Security Program (SHSP) to pay for
                           their associated costs.1 SLGCP works with DHS to evaluate applications. For
                           TOPOFF 3, eight states and one territory responded; Connecticut and New
                           Jersey were selected.

                           TOPOFF 3 was the third exercise in the national series of exercises designated
                           to strengthen the United States’ capacity to combat terrorist attacks. The first,
                           TOPOFF 2000, was conducted in May 2000 as an unannounced exercise. The
                           scenario involved simultaneous simulated incidents in Denver, Colorado
                           (pneumonic plague) and in Portsmouth, New Hampshire (mustard gas).
                           TOPOFF 2000 was sponsored and executed by the Department of Justice
                           (DOJ). The second exercise, TOPOFF 2, was conducted in May 2003 as an
                           announced exercise. Its scenario involved simulated incidents occurring in
                           Seattle, Washington (a radiological dispersal device) and in Chicago, Illinois
                           (pneumonic plague). The DOJ and the Federal Emergency Management
                           Agency (FEMA) jointly sponsored TOPOFF 2. TOPOFF 3 was the first
                           opportunity for DHS to sponsor and execute an entire exercise cycle.

                           Play for TOPOFF 3 began on March 4, 2005, 30 days prior to the start of the
                           exercise, with simulated activities involving the intelligence community. The
                           design of pre-exercise intelligence play was unique to TOPOFF 3. The
                           opponent was fictionalized but based upon real world terrorist groups to
                           influence player actions, create decision-making avenues, and provide
                           participants with an opportunity to exercise against a realistic and adaptive
                           adversary.2 The scope of play was designed to test U.S. law enforcement and

1
  The UASI program addresses the distinct equipment, training, planning, and exercise needs of large high threat urban
areas. Funds are disbursed to states, which in turn distribute the funds to identified high threat urban areas. There is no
cost share requirement for this program. The SHSP provides financial assistance directly to each state and territory to
prevent, respond to, and recover from acts of terrorism. SHSP addresses identified planning, equipment, training, and
exercise needs. There is no cost share requirement for this program.
2
  For the TOPOFF 3, the opponent is generically referred to as the Universal Adversary. The Universal Adversary is a
data source used by SLGCP in TOPOFF 3 that replicates actual terrorist networks in extreme detail and includes dossiers
down to names, photos, and drivers’ license numbers. The data enabled exercise participants to simulate intelligence
gathering and analysis.

                                               A Review of the Top Officials 3 Exercise
                                                               Page 3
                          intelligence capabilities to detect and disrupt a terrorist plot as early as
                          possible and to react to ambiguous and changing information. The prevention
                          aspect was intentionally down played to afford law enforcement and the
                          intelligence community an opportunity to fully employ their operational
                          procedures, engage their analysts, and provide vital information to exercise
                          participants during the exercise that commenced on April 4, 2005.

                          TOPOFF 3 was conducted from April 4–8, 2005, as an announced exercise. It
                          was designed to evaluate decision-making by federal, state, and local top
                          officials in response to a series of integrated and geographically dispersed
                          terrorist threats and acts. It included simulated incidents of a biological agent
                          (pneumonic plague) attack in Union and Middlesex counties, New Jersey, and
                          a chemical agent release (mustard gas) and high-yield explosive in the City of
                          New London, Connecticut. In addition, there were linked exercise activities
                          conducted in the United Kingdom and Canada as part of a partnership to
                          strengthen security, communication, and information sharing among the three
                          nations. The concurrent exercises were ATLANTIC BLUE in the United
                          Kingdom and TRIPLE PLAY in Canada.3

                          In addition to the international play and internationally linked intelligence
                          community play, there were other elements unique to TOPOFF 3. The
                          exercise was two days longer than TOPOFF 2 and it included the private
                          sector as well as long-term recovery and remediation issues. Further, scenario
                          and Master Scenario Events List (MSEL) development was intentionally
                          controlled by SLGCP, with definitive deliverable dates, and employed a
                          dedicated core design and working group.4

                          Other activities in the TOPOFF 3 cycle included a Command Post Exercise5
                          to test coordination among federal departments and agencies, a series of
                          building-block seminars, conferences, a cyber exercise, an Advanced Distance
                          Learning Exercise6 that involved a nationwide audience, and a Large Scale

3
  The scope of our review did not include an assessment of the United Kingdom or Canada’s participation in the
TOPOFF 3 exercise, nor the concurrent ATLANTIC BLUE and TRIPLE PLAY exercises.
4
  The MSEL is the primary exercise control document. It is a chronological list of exercise messages and events used to
stimulate and guide player action. Each MSEL specifies when, by whom, to whom, and what is to be introduced into
play.
5
  A Command Post Exercise is designed to test and evaluate individual capabilities, multiple functions, or activities
within a function or interdependent groups of functions. It is usually focused on exercising the plans, policies,
procedures, and staffs of the direction and control element of Incident Command and Unified Command. Generally,
events are projected through an exercise scenario with event updates that drive activity at the management level.
Movement of personnel and equipment is simulated.
6
  The Advanced Distance Learning Exercise was a three day event that used satellite broadcasts and a secure website to
disseminate information and provide education and training opportunities for first responders, emergency managers, and

                                              A Review of the Top Officials 3 Exercise
                                                              Page 4
                          Game for federal, state, local, international, and private sector participants to
                          play and address long term recovery and remediation issues.7

                          Twenty-seven federal departments and agencies were represented in the
                          exercise and 30 state, 44 local, and 156 private sector organizations
                          participated.8 TOPOFF 3 provided DHS and other federal participants with an
                          opportunity to exercise decision making within the framework of the newly
                          implemented NRP, NIMS, and the operating procedures of the Interagency
                          Incident Management Group (IIMG) and the Homeland Security Operations
                          Center (HSOC). The scope of play involved establishing incident scenes and
                          required first responders to perform actions usually associated with an initial
                          response to a terrorist incident. Those actions included victim rescue, triage,
                          treatment, decontamination, hazard identification, site security, crowd control,
                          render-safe procedures on devices or weapons, monitoring for contamination,
                          contamination control, and device recovery and packaging.

                          Legislation and Policy Provide Structure and Context

                          When developing an exercise within the TOPOFF series, SLGCP relies upon
                          existing legislation and policy as a framework for overseeing and managing
                          the design, planning, conduct, and evaluation. For example, the Homeland
                          Security Act of 2002 makes SLGCP responsible for building and sustaining
                          the preparedness of the United States and the National Strategy for Homeland
                          Security establishes a National Exercise Program.9 Homeland Security
                          Presidential Directive (HSPD)–8 sets forth policy to develop a national
                          domestic all hazards preparedness goal and DHS’ Secretary charged SLGCP
                          with leading the effort to develop and implement the National Preparedness
                          Goal. Further, HSPD–5 enhances the ability of the United States to manage
                          domestic incidents by establishing a single, comprehensive NRP. The NRP is
                          predicated on NIMS, which provides a consistent doctrinal framework for
                          incident management at all jurisdictional levels, regardless of the cause, size,
                          or complexity of the incident. Finally, SLGCP is charged with leading the
                          effort to develop and implement the adoption of quantifiable performance
                          measurements in the areas of training, planning, equipment, and exercises.10



top officials from federal, state, and local governments and United States territories to improve domestic incident
management capabilities in response to a WMD terrorist attack.
7
  The TOPOFF3 Large Scale Game was conducted May 3–5, 2005, in Lansdowne, Virginia.
8
  See Appendix C for a list of federal departments and agencies represented during TOPOFF 3.
9
  See Appendix D for a description of the Homeland Security Act, P.L. 107-296, the National Strategy for Homeland
Security, HSPD-8, the National Preparedness Goal and National Preparedness System, and HSPD–5.
10
   See Appendix E for additional national requirements and authorizations prior to the creation of DHS.

                                              A Review of the Top Officials 3 Exercise
                                                              Page 5
Scenario Developed Based on Established All Hazard Planning Scenarios

When developing scenarios, SLGCP receives direction from the Homeland
Security Council (HSC). The HSC has worked with DHS, federal
interagency, and state and local homeland security organizations in
developing 15 all hazards planning scenarios for use in national, federal, state,
and local homeland security preparedness activities. The National Planning
Scenarios are designed to serve as a foundation and structure for developing
national preparedness standards, from which homeland security capabilities
may be measured. The scenario developed and played for TOPOFF 3
included elements of National Planning Scenarios 4, 5, and 12.

The 15 scenarios are:

Scenario 1: Nuclear Detonation – 10-Kiloton Improvised Nuclear Device
Scenario 2: Biological Attack – Aerosol Anthrax
Scenario 3: Biological Disease Outbreak – Pandemic Influenza
Scenario 4: Biological Attack – Plague
Scenario 5: Chemical Attack – Blister Agent
Scenario 6: Chemical Attack – Toxic Industrial Chemicals
Scenario 7: Chemical Attack – Nerve Agent
Scenario 8: Chemical Attack – Chlorine Tank Explosion
Scenario 9: Natural Disaster – Major Earthquake
Scenario 10: Natural Disaster – Major Hurricane
Scenario 11: Radiological Attack – Radiological Dispersal Devices
Scenario 12: Explosives Attack – Bombing Using Improvised Explosive Device
Scenario 13: Biological Attack – Food Contamination
Scenario 14: Biological Attack – Foreign Animal Disease (Foot and Mouth Disease)
Scenario 15: Cyber Attack

SLCGP used a contracted Exercise Support Team (EST) to develop a realistic
and plausible scenario that would include credible situations.

Exercise Objectives and Conduct Were Determined Through Coordinated
Planning

SLGCP officials said planning for TOPOFF 3 started approximately 70 days
after the culmination of TOPOFF 2. A primary objective of this initial period
was the TOPOFF 3 state venue solicitation and selection process.
Participating states were chosen by using a standardized selection process,
which included sending out a written letter to each state and the Territorial
Homeland Security Advisors, which announced the opportunity to participate
in the exercise. The letter specifically stated that any state or territory


                 A Review of the Top Officials 3 Exercise
                                 Page 6
                          interested in participating in TOPOFF must meet criteria specified in the
                          solicitation and respond in writing from the governor’s office. Upon receipt
                          of the applications, SLGCP planners then met with and briefed applicants on
                          the specifics of the exercise process and federal, state, and local
                          responsibilities. States were provided a set timeframe to decide if they were
                          interested in participating. Once this list was refined, in March 2004 DHS’
                          Secretary made a decision to select Connecticut and New Jersey. This process
                          also included the selection of TOPOFF 4 state venues. These participants
                          were selected so that their representatives could observe the various TOPOFF
                          3 phases and events to better prepare them for TOPOFF 4.

                          During the period of June 2003 to November 2003, SLGCP worked to
                          determine TOPOFF 3 criteria based upon lessons learned from TOPOFF
                          2000, TOPOFF 2, various seminars, Senior Officials Exercises, and the
                          Advanced Distance Learning Exercise. SLGCP solicited input from federal
                          departments and agencies, state and local government officials, and the public
                          sector in planning exercise objectives and conduct.

                          From November 2003 to June 2004, SLGCP worked with the EST and formed
                          the following five working groups: (1) the Scenario Working Group
                          conducted threat assessments, developed the Universal Adversary, and drafted
                          the scenario;11 (2) the Control and Evaluation Working Group developed
                          plans to support the evaluation process, collection of data, reconstruction, and
                          analysis; (3) the Intelligence Working Group developed the architecture, flow,
                          and sequencing of intelligence play that would begin 30 days prior to start of
                          the exercise and continue through the end of the exercise; (4) the Public
                          Affairs Working Group planned and conducted the Public Affairs Seminar
                          and drafted the public affairs, real world media, and VIP/Observer plans; and,
                          (5) the Private Sector Working Group integrated private sector participation
                          and evaluated information sharing, coordination, and dissemination between
                          the private sector and federal, state, and local organizations.

                          From June 2004 to March 2005, SLGCP, the EST, and the five working
                          groups conducted planning sessions at all venue locations. In addition, they
                          conducted three major planning conferences to coordinate the state venues,
                          international, federal, state, and local interagency efforts: the Initial Planning
                          Conference (June 22–23, 2004), the Midterm Planning Conference
                          (November 3–4, 2004), and the Final Planning Conference (March 2–3,


11
  The EST supported the Scenario Working Group by providing professional writers, research assistants, and select
subject matter experts.

                                             A Review of the Top Officials 3 Exercise
                                                             Page 7
                          2004). The coordinated planning efforts culminated in the conduct of the
                          TOPOFF 3 full scale exercise.

                          TOPOFF 3 Goals and Overarching Objectives

                          The goals were to: improve the nation’s capacity to prevent, respond to, and
                          recover from terrorist attacks in accordance with DHS protocols by using the
                          NRP and NIMS;12 identify baseline capabilities and derive consensus
                          performance standards to measure proficiency against a range of probable
                          threats; synchronize the series with national goals and objectives; improve
                          international coordination and cooperation during a WMD terrorist incident
                          response; and, assess and strengthen government and private sector
                          partnerships to prevent, respond to, and recover from WMD incidents.
                          SLGCP selected the following four functional areas as objectives to achieve
                          exercise goals and further advance the development and testing of the
                          National Preparedness Goal.

                          •   Incident Management: To test the full range of existing procedures for
                              domestic incident management of a WMD terrorist event and improve,
                              through evaluation and practice, top officials’ capabilities in affected
                              countries to respond in partnership.

                          •   Intelligence/Investigation: To test the handling and flow of operational
                              and time critical intelligence between the United States, the United
                              Kingdom, and Canadian agencies in response to linked terrorist incidents
                              occurring in all three countries.

                          •   Public Information: To practice the strategic coordination of media
                              relations and public information issues between the United States, the
                              United Kingdom, and Canada in the context of WMD terrorist incidents
                              affecting all three countries.

                          •   Evaluation: To identify lessons learned and promote best practices.

12
  The Homeland Security Act of 2002 and HSPD–5 mandated the development of the NRP. The NRP superseded the
Federal Response Plan (FRP), Domestic Terrorism Concept of Operations Plan, Federal Radiological Emergency
Response Plan, and the Interim NRP. Many of the concepts and mechanisms associated with those plans were carried
over in the NRP, such as the Emergency Support Function process of the FRP and elements such as Homeland Security
Operations Center, Interagency Incident Management Group, Principal Federal Official, and Joint Field Office that were
introduced in the Interim National Response Plan. The NRP was also designed to link various national level hazard
specific contingency plans, such as the National Oil and Hazardous Substances Pollution Contingency Plan that can be
implemented independently during localized incidents, or concurrently with the NRP during Incidents of National
Significance.

                                             A Review of the Top Officials 3 Exercise
                                                             Page 8
                           Evaluation Process Based On Methodology

                           The evaluation process is based on an approach and methodology outlined in
                           the Homeland Security Exercise and Evaluation Program (HSEEP).13 The
                           overall evaluation is intended to document what occurred during the exercise,
                           explain why it occurred, and provide participants with useful information to
                           improve response and recovery efforts. There are three steps in this process:
                           (1) Observation – the collection of data; (2) Reconstruction – determining
                           what occurred and when it occurred; and, (3) Analysis – determining why
                           specific actions or events occurred.

                           From March 3, 2005, to September 30, 2005, evaluation efforts focused on
                           high-level federal, state, and local coordination, support plans, policies, and
                           procedures. SLGCP also encouraged all departments, agencies, and
                           organizations to conduct internal evaluations based upon their specific
                           objectives.

                           Our Role as Observer

                           During planning meetings and interviews conducted between October 2004
                           and November 2004, several interagency planners and participants involved in
                           the TOPOFF 3 development process bought to our attention issues that might
                           significantly affect achieving several objectives. Rather than wait until the
                           conclusion of the exercise to issue one report assessing TOPOFF 3, we
                           initiated early communications that, in our opinion, could assist in furthering
                           exercise preparation. We provided three observation papers to SLGCP on
                           FEMA’s engagement in initial planning meetings, the integration and
                           participation of the private sector, and the development of the scenario to
                           facilitate and integrate DoD’s participation.

                           Our first paper focused on FEMA’s level of participation in planning meetings
                           because by early October 2004, it appeared from interviews with various
                           planners that the agency was not actively engaged in exercise preparation.
                           We noted that during the early exercise planning stages, there were some
                           development and communication difficulties that might have limited FEMA’s
                           initial engagement in the process. However, by late October 2004 the
                           majority of these issues were resolved and FEMA had made significant

13
  The HSEEP provides an overview of national exercise management and planning. It establishes both doctrine and
policy for designing, developing, conducting, and evaluating exercises. The HSEEP is threat and performance based and
includes a cycle and range of exercise activities that vary in complexity and interaction. The HSEEP was developed as a
reference tool to assist states and local jurisdictions with establishing exercise programs and to design, develop, conduct,
and evaluate exercises.

                                               A Review of the Top Officials 3 Exercise
                                                               Page 9
                          progress in planning for TOPOFF 3 and meeting its committed level of
                          participation.

                          Our second paper concerned the integration and participation of the private
                          sector. TOPOFF 3 was to provide private sector organizations and
                          associations an opportunity to test their emergency response and business
                          continuity plans in conjunction with federal, state, and local response
                          departments and agencies. Historically, the majority of federal efforts to
                          develop a national strategy for response and recovery from acts of terrorism
                          have not embraced a private sector component. After September 11, 2001,
                          and the creation of DHS, coordination and exercise efforts were viewed as
                          lacking a critical component, the private sector, in achieving a unified
                          approach. To address this shortfall, TOPOFF 3 was to integrate the private
                          sector into the exercise.

                          However, based on discussions with Private Sector Working Group members,
                          our attendance at working group meetings, and the TOPOFF 3 National
                          Planning Conference, communication among SLGCP planners, interagency
                          partners, and the private sector needed additional attention. Further, the
                          private sector sought a better understanding of the NRP and NIMS if it was to
                          be effectively integrated. We noted that additional training would allow the
                          private sector a more realistic opportunity to integrate into the planning
                          process and participate in the exercise.

                          Our final paper focused on DoD’s participation. We observed that DoD and
                          SLGCP planners were struggling with developing the scenario to facilitate and
                          integrate DoD’s participation in the exercise. TOPOFF 3 was to provide DoD
                          with an opportunity, in conjunction with civil authorities under the newly
                          implemented NRP, to test its role in the national strategy for domestic
                          emergency preparedness and response. Historically, DoD had asserted that
                          civil agencies should lead domestic emergency preparedness and response
                          efforts. DoD considered its domestic emergency response role as providing
                          only supplemental support or assistance only following the exhaustion of
                          federal, state, and local resources. Under US Code, Title 32, a state’s
                          Governor may call upon National Guard capabilities to augment response and
                          recovery efforts, but additional DoD assets would not be provided. In
                          addition, concerns about the Posse Comitatus Act and possible
                          misunderstandings of its scope also tended to restrict deployment of DoD
                          forces.14
14
  Congress passed the Posse Comitatus Act, 18 U.S. Code, Section 1385, after the Civil War to prohibit the use of the
Army in civilian law enforcement. The Act embodies the traditional American principle of separating civilian and
military authority and currently forbids the use of the Army, Air Force, Navy, and Marine Corps to enforce civilian laws.

                                              A Review of the Top Officials 3 Exercise
                                                              Page 10
                             After September 11, 2001, the war on terrorism required a rethinking of
                             domestic emergency preparedness and response efforts. DoD’s role in
                             securing our nation evolved from the department of last resort to one in which
                             DoD could play a pivotal role in domestic emergency preparedness and
                             response. TOPOFF 3 was to provide DoD an opportunity to engage and
                             prepare for its emerging homeland defense mission.15 We encouraged
                             SLGCP, as a part of its planning process for future exercises, to survey federal
                             departments and agencies and their components to identify the events and
                             mechanisms necessary for DoD activation and the operating procedures that
                             govern its participation. By working in partnership with other federal
                             departments and agencies, SLGCP could facilitate interagency cooperation
                             and integration into the TOPOFF exercise series better. Further, we
                             emphasized the need for DoD participation in NRP and NIMS training to
                             solidify its role and responsibilities for homeland security and to facilitate an
                             enhanced understanding among federal, state and local agencies of DoD’s
                             role.


Results of Review
                             The four principal objectives established for the exercise were addressed and
                             met. However, there is room for improved coordination to enhance
                             effectiveness. There were opportunities for the private sector and government
                             agencies to work together but the exercise highlighted, at all levels, a
                             fundamental lack of understanding of the principles and protocols set forth in
                             the NRP and NIMS. Although private sector and DoD engagement was for
                             the most part successful, there were integration issues that require further
                             discussion and analysis.




See 10 U.S. Code, Section 375. The prohibitions do not apply to the U.S. Coast Guard in peacetime. Generally
supportive and technical assistance (e.g., use of facilities, vessels, aircraft, intelligence, technical aid, surveillance, etc.)
is permitted while direct participation of military personnel in law enforcement (e.g., search, seizure, and arrests) is
prohibited.
15
   The United States Northern Command is the DoD unified combatant command assigned full time responsibility for
homeland defense and military assistance to civilian authorities. Its specific mission is to conduct operations to deter,
prevent, and defeat threats and aggression aimed at the United States, its territories and interests within the command’s
assigned area of responsibility. Also, as directed by the President of the United States or Secretary of DoD, it provides
support to U.S. civil authorities, including military assistance to civil authorities, military support to civilian law
enforcement agencies, military assistance for civil disturbances, and incident management operations in response to a
WMD attack.

                                                  A Review of the Top Officials 3 Exercise
                                                                  Page 11
         Exercise Objectives Were Generally Met But Challenges Remain
                           The NRP establishes a single, comprehensive framework for managing
                           domestic incidents and provides structure and mechanisms for how federal
                           resources, in concert with state and local governments as well as the private
                           sector function in response to Incidents of National Significance.16 The NRP
                           is predicated on NIMS and together they form a national template for
                           preventing and responding to threats and incidents regardless of cause, size, or
                           complexity. During the exercise, an objective established by SLGCP was to
                           use both the NRP and NIMS as the framework and approach for response and
                           incident management.

                           Incident Management, NRP, and NIMS Implementation Requires
                           Additional Coordination and Training

                           From initial planning meetings through the conduct of the exercise, federal,
                           state, and local departments and agencies worked together to overcome
                           differences and to achieve consensus on issues relevant to their respective
                           domestic preparedness roles and responsibilities under the NRP and NIMS.
                           However, as events unfolded and intensified, the response and coordination
                           efforts of some participants could have been more effective had they
                           possessed a better understanding of NRP and NIMS protocols. For example,
                           there was confusion over the different roles and responsibilities performed by
                           the Principal Federal Official (PFO) and the Federal Coordinating Officer
                           (FCO).

                           The PFO is designated by DHS’ Secretary to act as the Secretary’s local
                           representative in overseeing and executing the incident management
                           responsibilities under HSPD–5 for Incidents of National Significance. The
                           role of the PFO is to provide the Secretary with pertinent information, but the
                           PFO does not direct or replace the Incident Command System and structure,
                           and does not have direct authority over the senior law enforcement official, the
                           FCO, or other federal and state officials.17

16
   All incidents are handled at the lowest possible organizational and jurisdictional level. Police, fire, public health and
medical, emergency management, and other personnel are responsible for incident management at the local level. For
those events that rise to the level of an Incident of National Significance, DHS provides operational and resource
coordination for federal support to the on scene Incident Command System and structure.
17
   The Incident Command System is a standardized on scene emergency management construct specifically designed to
provide for the adoption of an integrated organizational structure that reflects the complexity and demands of single or
multiple incidents, without being hindered by jurisdictional boundaries. It combines facilities, equipment, personnel,
procedures, and communications operating with a common organizational structure, and is designed to aid in the
management of resources during incidents.

                                                A Review of the Top Officials 3 Exercise
                                                                Page 12
                          The FCO is designated by the President and manages federal resources and
                          support activities in response to disasters and emergencies declared by the
                          President. The FCO has the authority under the Stafford Act to request and
                          direct federal departments and agencies to use their authorities and resources
                          (including personnel, equipment, supplies, and managerial, technical, and
                          advisory services) in support of state and local response and recovery
                          efforts.18 The FCO is responsible for coordinating the timely delivery of
                          federal disaster assistance and programs to the affected state, the private
                          sector, and individual victims. Developing a better understanding of the roles
                          and responsibilities performed by the PFO and FCO should enhance
                          implementing the NRP and NIMS within established protocols.

                          In addition to confusion over the respective roles and authority of the PFO and
                          FCO, the exercise highlighted problems regarding the designation of a PFO
                          and the lack of guidance on training and certification standards for PFO
                          support personnel. The NRP speaks to having a PFO support cell but does not
                          address any structure or training requirements. A potential conflict occurred
                          in one of the venues when the PFO pulled personnel from his agency to
                          perform PFO support cell functions. The support cell staff responded to the
                          PFO as an “agency head” rather than a PFO and provided support that was
                          agency focused.

                          Participants said the early deployment of large-scale federal assets was
                          unrealistic. For example, had the incident been real, FEMA would have
                          initially deployed Emergency Response Teams to the State Emergency
                          Operations Centers to supplement and assist local response and recovery
                          efforts but in this exercise it did not.19 Also, the Joint Field Offices would not
                          have been established until six or seven days into the incident.

                          Further, as the exercise intensified and transitioned from the Incident
                          Command System to the Unified Command Post, the changeover did not
                          function as anticipated.20 There was confusion among the participants

18
   The Stafford Act is the short title for The Robert T. Stafford Disaster Relief and Emergency Assistance Act, P.L. 93-
288, as amended.
19
   FEMA can activate and deploy an Emergency Response Team in preparation for or response to an event that has the
potential to be declared an emergency or major disaster. This team assists the FCO in executing responsibilities under
the Stafford Act and the FEMA–State agreement. The team consists of key members from the FCO's staff and lead
representatives from each federal department or agency assigned primary responsibility for an Emergency Support
Function.
20
   A Unified Command Post is an application of the Incident Command System and is used when there is more than one
agency with incident jurisdiction or when incidents cross over political jurisdictions.

                                              A Review of the Top Officials 3 Exercise
                                                              Page 13
                          because some departments and agencies that would normally function within
                          the post structure were not represented. Adding to the confusion, some
                          participants reverted to the Federal Response Plan (FRP) and the Domestic
                          Terrorism Concept of Operations Plan rather than follow the NRP and NIMS.

                          Efforts to implement the NRP may have been hampered by several
                          institutional and procedural factors. The institutional factors stem from an
                          inability of several departments and agencies to fully comprehend their roles
                          and responsibilities within the limited timeframe between release of the NRP
                          and the exercise. There was confusion over the phase-in period and NIMS,21
                          or there was an inability to implement requirements because they lacked
                          sufficient education and training.22 SLGCP officials acknowledged that the
                          NRP and NIMS were not fully executed as originally envisioned because the
                          NRP was officially released just prior to the exercise. Progress is being made
                          however. Federal and state departments and agencies have been working in
                          concert with DHS’ Operations and Integration Staff (I-Staff23) and FEMA’s
                          National Integration Management System (NIMS) Center to obtain a better
                          understanding of the NRP and NIMS key concepts and elements and how best
                          to integrate those concepts into their institutional and operational policies.24

                          Procedural factors can be linked to the complexity of the exercise and may
                          have discouraged some participating departments and agencies from engaging
                          early in the development and planning process. For example, during the
                          nearly yearlong process some participants did not determine their roles and
                          level of participation until just a few months before the exercise. These delays
                          placed additional stress on the planning process. To its credit, SLGCP
                          responded with outreach efforts that included one on one meetings and mobile
                          training teams to bring participants to a level where their anticipated play
                          could be integrated.


21
   DHS’ Secretary released the NRP on January 6, 2005. It is effective upon issuance with a phased implementation
process during the first year. For the first 120 days, the Interim National Response Plan, FRP, U.S. Government
Domestic Terrorism Concept of Operations Plan, and Federal Radiological Emergency Response Plan remain in effect.
Please see Appendix F for more information regarding NRP implementation effective dates.
22
   To facilitate awareness and implementation of the NRP, FEMA began a national rollout in April 2005 that included a
series of briefings for federal departments and agencies and one-day training seminars in Washington, DC; Miami,
Florida; New York City, New York, Chicago, Illinois; Seattle, Washington; and Los Angeles, California.
23
   The Operations and Integration Staff (I-Staff) is responsible for supporting NRP implementation within DHS and
providing oversight to track task accomplishment by other federal departments and agencies. The I-Staff, in conjunction
with FEMA, established an interagency working group to track NRP implementation progress, identify problems, and
assist in problem resolution.
24
   The NIMS Integration Center was established to provide strategic direction for and oversight of the NRP and NIMS.
It is a multi-jurisdictional, multidisciplinary entity of incident management and first responder organizations.

                                              A Review of the Top Officials 3 Exercise
                                                              Page 14
Recommendation

We recommend that the Executive Director of the Office of State and Local
Government Coordination and Preparedness:

1. Work with federal entities to ensure realistic response times for federal
   assets during exercise play.

Clarification of HSOC and IIMG Roles

The roles and responsibilities of the HSOC and the IIMG should be clarified.
The HSOC, along with the IIMG, played a central role by monitoring ongoing
events and reporting information to top officials across federal, state, and local
departments and agencies. One of the primary roles performed by the HSOC
is to maintain an accurate picture of events as an incident unfolds by gathering
and integrating information from multiple sources. Under the NRP, a key role
of the IIMG is to provide decision-making support to top and senior officials
during an incident. However, rather than provide policy advice to top officials
during the exercise, the IIMG was under pressure from senior federal officials
to provide situational information and address lower level coordination issues
that should have been part of HSOC’s role. This further demonstrates a need
for more emphasis on NRP and NIMS training at all levels of government.

Recommendation

We recommend that the Executive Director of the Office of State and Local
Government Coordination and Preparedness:

2. Continue to exercise NRP and NIMS with all levels of government.

Training and exercising alone will not resolve issues over specific roles and
responsibilities performed by individuals, departments, and agencies. Upon
our review and understanding of the NRP, guidance and procedures to define
how each function interrelates within the NRP appear absent. Developing
effective operating procedures and defined roles is essential to establishing
accountability, preventing duplication of efforts, satisfying appropriate NRP
and NIMS standards, strengthening operations, and providing the foundation
for a cohesive national preparedness, response, and recovery strategy.
Without standards, specific duties and functions will remain unclear and the
relationship between specific roles and responsibilities will remain undefined.




                 A Review of the Top Officials 3 Exercise
                                 Page 15
                           Under the NRP, there is a requirement that within one year of plan’s effective
                           date DHS’ Secretary will conduct an interagency review to assess
                           effectiveness, identify improvements, and provide recommendations regarding
                           plan modifications and reissuance, if necessary. In May 2005 FEMA assumed
                           full responsibility for NRP management and maintenance, including the
                           evaluation process necessary for the one-year review.25

                           Recommendations

                           We recommend that the Director of the Federal Emergency Management
                           Agency:

                           3. Consult with federal departments and agencies to develop operating
                              procedures that clearly define individual and organizational roles and
                              responsibilities under the NRP, and

                           4. Continue to train NRP and NIMS with all levels of government.

                           Incident of National Significance and State Declarations Were Unclear

                           Under the NRP, DHS’ Secretary has the authority to declare an Incident of
                           National Significance. What is not currently provided in the NRP is a
                           procedure for how such a declaration is disseminated throughout federal, state,
                           and local levels of government. More importantly, it remains unclear what
                           new resources and authorities are available to states when an event is
                           designated an Incident of National Significance.

                           In addition, states have their own authority to declare an emergency. During
                           the exercise, the Governor of New Jersey declared an emergency, which
                           allowed the governor to activate the National Guard and other state
                           departments and agencies in response to the event. The declaration
                           establishes, if necessary, the foundation for making a request of the President
                           to declare an emergency or major disaster to receive federal assistance.

                           At the federal level, there was a lack of understanding as to what the state
                           emergency declaration meant in New Jersey. DHS must be better informed of
                           the resources and applications available when state authorities are invoked so
                           that federal resources and assets may be more effectively coordinated.



25
     The NRP rollout was conducted April 13, 2005, to May 26, 2005.

                                              A Review of the Top Officials 3 Exercise
                                                              Page 16
                           Recommendations

                           We recommend that the Executive Director of the Office of State and Local
                           Government Coordination and Preparedness:

                           5. Work and coordinate with the Department of Homeland Security, Office
                              of the Secretary to clarify the designation process for an Incident of
                              National Significance and define the resources and assets that thereby
                              become available to state and local governments; and

                           6. Work with the Department of Homeland Security, Office of the Secretary
                              to develop a disaster and emergency powers compendium for all states so
                              that federal resources and assets may be more effectively coordinated
                              during national exercise play.

                           Future Compliance with NIMS Should Reduce Conflicts

                           The NIMS Integration Center is tasked with providing mechanisms for
                           implementing NIMS across federal, state, and local organizations. The
                           Integration Center is developing first responder training and certification
                           standards, a national credentialing system, incident management technologies,
                           and mechanisms for ensuring compliance with NIMS. Compliance
                           requirements will be phased in over several years.26 For fiscal year (FY)
                           2005, full compliance is not required to obtain a grant, but by the end FY
                           2006, full compliance will be a condition for receipt of preparedness grants.
                           NIMS compliance includes qualification and certification requirements so that
                           all activities conform to the structures, process, and protocols detailed in the
                           NRP. These efforts should reduce possible confusion in future exercises.

                           Intelligence Operations Not Fully Observed

                           The intelligence and information-sharing objective was designed to test the
                           handling and flow of operational and time critical intelligence within the
                           intelligence community. Federal, state, and local law enforcement and
                           intelligence departments and agencies participated as well as their Canadian
                           and United Kingdom counterparts. The objective was to assess agency
                           analysis and distribution of exercise intelligence through existing intelligence

26
   As mandated by HSPD-5, beginning in FY 2005, adoption of NIMS was a requirement for receipt of grants funds from
SLGCP. As such, DHS encouraged sub-grantees to begin using NIMS concepts, principles, terminology, and
technologies, as they are made available by DHS. If agencies are not already using the Incident Command System as
taught by DHS, sub-grantees are required to institutionalize the use of it across their entire response system by the end of
a two-year performance period, which ends November 31, 2005.

                                               A Review of the Top Officials 3 Exercise
                                                               Page 17
                           channels. Intelligence play began on March 4, 2005, and continued to the end
                           of the exercise. Information was disseminated to intelligence analysts via
                           message traffic and intelligence reports. The information provided the
                           analysts with an opportunity to identify and prevent the threat. Additionally,
                           participating intelligence agencies passed critical intelligence information to
                           top officials involved in making key decisions and provided information to
                           exercise participants through the HSOC to the FBI. The FBI used the Joint
                           Terrorism Task Force to disseminate this information to state and local
                           departments and agencies via telephone or secured fax.

                           The Intelligence Working Group planning meetings were generally not
                           included on exercise timelines and meeting schedules available to agency and
                           department planners. Intelligence members did attend TOPOFF 3 planning
                           conferences, but held their meetings separately. Three weeks prior to the
                           exercise, we contacted the lead intelligence planner and requested access to
                           one of the group’s meetings. One week later, we were not provided access but
                           did receive an unclassified briefing from senior planners to afford us an
                           overview of the group's yearlong activities. We were told the working group
                           had made significant progress in engaging the participation of federal
                           intelligence agencies in the exercise. More importantly, intelligence agencies
                           were able to solidify their working relationships and identify new
                           counterparts, which allowed for an examination and updating of their
                           operating procedures. Other tangible results were that exercise intelligence
                           was not mistaken for real intelligence, the intelligence community had been
                           able to identify preventable acts within the 30 day pre-exercise period, and the
                           national intelligence architecture was mapped for the first time.27 During the
                           exercise we decided not to observe interagency intelligence operations.28
                           However, after the exercise we requested, but were unable to obtain access to
                           the intelligence Hotwash and other post intelligence exercise debriefings.29
                           We did not press for greater access because we wanted to avoid having any
                           potentially disruptive effect on the exercise and because other demands were
                           placed upon our review team as the exercise unfolded.




27
   Because of the desire to use existing channels to circulate information that was intended to be as realistic as possible,
great care was taken to ensure the synthetic intelligence did not become inadvertently commingled with real intelligence.
28
   Intelligence play was not part of our originally planned scope and the briefings we received met our minimum needs
for the exercise. However, this subject will be a principal element of our review of the next TOPOFF cycle.
29
   A Hotwash is a debriefing opportunity for participants, shortly after the end of an exercise, to discuss issues and areas
that need improvement and best practices learned.

                                                A Review of the Top Officials 3 Exercise
                                                                Page 18
Information Collection and Dissemination Needs Standardization

TOPOFF 3 presented participants with formidable challenges in the treatment
and sharing of key information. The secured messaging system and
information collection and reporting structure in place for exercise
participants was insufficient to process, prioritize, and track the volume of
information flowing among participants. Also, there was no standardized
format for information collection and reporting. For example, some state
requests for assistance were processed without the knowledge of either the
PFO or FCO, which placed both at a disadvantage. Also, it was unclear how
or when requests were initiated or whether requirements or mission
assignments were being processed. Finally, mission assignments often were
cancelled without proper notification to state and local authorities. A common
information management system would have facilitated a more open and
efficient exchange of operational information for use in the decision-making
process as in addition to clarifying issues of accountability.

The exercise highlighted the need for participating responders as well as
coordinating departments and agencies to have a common operational picture,
which is essential to an efficient and effective command and control structure.
Also, a common operational picture provides decision makers with the ability
to accurately tailor the response and resources to the incident as events unfold.

Recommendation

We recommend that the Executive Director of the Office of State and Local
Government Coordination and Preparedness:

7. Design an information management system for use in future exercises that
   allows participants to track and share information more openly and
   efficiently; and, standardize the format and methodology for collecting
   and reporting information.

Public Information and Media Relations Were Effective

Another objective was to coordinate media relations and public information
issues by allowing participants to test communication plans, develop media
management and communication skills, coordinate information, and
communicate across participating departments as well as with the public.
Participants were provided an opportunity to employ the information
collection process and to use various information dissemination techniques.
The format allowed for structure and coordination, (for example, message

                 A Review of the Top Officials 3 Exercise
                                 Page 19
                            development through Joint Information Centers) and for practicing specific
                            approaches (such as interviews, press briefings, and status updates).30

                            Efforts were both external and internal. Externally, real world media and
                            VIPs were able to observe TOPOFF 3, obtain status briefings, and interact
                            with SLGCP staff to gain a better understanding of federal, state, and local
                            preparedness and response capabilities and the goals and objectives of the
                            exercise. In addition, SLGCP was effective in conveying to media and the
                            public that events were simulated.

                            Internal efforts to coordinate media relations and public information were
                            deliberately scripted. SLGCP used a contractor to create a news organization,
                            the Virtual News Network (VNN), to simulate real world media coverage in
                            all venues. VNN aired four to eight hours each day during the exercise and
                            covered domestic and international venues. In addition to live television
                            broadcasts, an internet media component was accessible to participants
                            through a secured website. The VNN viewing audience included all domestic
                            and international exercise participants and their supporting departments and
                            agencies, as well as federal, state, and international officials from the United
                            Kingdom and Canada. Footage aired on VNN was not available to real media
                            organizations.

                            VNN contractors simulated media and reported events as they unfolded. In all
                            venues, participants were able to view exercise activities live on closed circuit
                            television. In addition, exercise control staff used VNN to inject information
                            that affected participant actions and play. Many participants said the role of
                            VNN media and public information was realistic and educational and it
                            provided an opportunity to exercise their communication objectives through a
                            dynamic and challenging sequence of dialogues and role-play.

                            Participation of Top Officials Occurred at All Levels

                            SLGCP was successful in engaging top official participation at all levels of
                            government, including U.S. senators and representatives, the Secretaries of
                            DHS and Health and Human Services (HHS), the Governors of Connecticut
                            and New Jersey, key federal and state department and agency heads, and local
                            officials. While their participation was not continuous, top officials were
                            involved in key decision-making processes throughout the exercise.
                            Department and agency components instrumental to implementing the NRP,

30
  A Joint Information Center is a facility established to coordinate all incident related public information activities and is
the central point of contact for all news media at the scene of an incident.

                                                A Review of the Top Officials 3 Exercise
                                                                Page 20
such as the HSOC, the IIMG, and the HSC were actively engaged in incident
management activities during the exercise. As in a real event, much of the
decision-making activities at the highest levels of government were not
apparent to participants and some were unaware of the level to which top
officials were actually actively engaged.

The exercise emphasized, however, a difficulty in establishing a coordinated
federal and state response. Top officials and their advisors must be more
aware of the need to coordinate support efforts across all levels of
government. For example, exercise participants said that federal departments
and agencies provided assets and resources that they did not request; in New
Jersey there was a federal deployment of a mobile 10,000-bed hospital facility
with prophylaxes. The State of New Jersey and its local governments were
unprepared to use the asset and were unclear as to what financial and staffing
support responsibilities would be required.

Exercise Evaluation Continues

Specific roles and responsibilities were established to support the evaluation
process, collection of data, reconstruction, and analysis. During TOPOFF 3,
data collectors, controllers, and analysts were used to perform those functions
at all venues. Most data collectors were provided by participating
departments and agencies and were knowledgeable of participant policies and
procedures. They recorded observations as the exercise unfolded and some
were also responsible for supporting the internal evaluation of their
organization. Controllers were responsible for managing the conduct, the
sequence of events, the pace and intensity of play, and assuring and
maintaining the security of participants, equipment, and resources.

SLGCP’s contractor provided analysts to oversee and coordinate all aspects of
data collection. At the end of the exercise, analysts began reconstruction for
analysis to identify areas needing improvement and to replicate best practices.
Immediately following the exercise, a Hotwash was conducted in each venue
to obtain additional participant feedback and to capture critical aspects. In
addition, an After Action Conference was held June 1–2, 2005, to develop
operational issues and identify and recommend corrective actions relative to
the exercise. At the conference participants were organized in working groups
(Command and Control, Operations, Logistics, Finance, and Planning) to
review critical issues that were raised during venue Hotwashes. The feedback
and analysis from the conference will be incorporated into a more formal
After Action Report to document and highlight significant findings on special
topics and multiple areas of analysis. From March 3, 2005, to September 30,

                A Review of the Top Officials 3 Exercise
                                Page 21
           2005, evaluation efforts focused on high-level coordination, support plans,
           policies, and procedures among the participants.


Integration and Participation of Private Sector and Department of Defense
           A major undertaking for SLGCP was integrating the private sector and DoD
           participation in TOPOFF 3, as both have not traditionally played an active
           role in domestic responses to acts of terrorism. Although engagement of the
           private sector and DoD was for the most part successful, the exercise
           identified integration issues that require further discussion and analysis at both
           federal and state levels of government. The lack of effective information
           sharing protocols for the private sector remains an impediment to establishing
           a functional partnership with the federal government. Also, state planners
           said the TOPOFF 3 scenario “created an artificiality” to facilitate DoD
           participation as the simulated attacks in New Jersey and Connecticut would
           not have exhausted state resources, a prerequisite for DoD involvement under
           present law.

           However, there were intangible benefits gained from DoD’s participation. For
           example, DoD’s United States Northern Command’s Interagency
           Coordination Group placed a representative in the National Infrastructure
           Coordination Center (NICC) with private sector participants during the
           exercise to improve its’ understanding of private sector and nongovernmental
           operations during a crisis event. As a result, both gained a mutual
           understanding of their respective roles and responsibilities under the NRP and
           identified potential redundant areas and a duplication of efforts.

           Private Sector Needs Improved Information Sharing and Understanding of
           Federal Roles and Responsibilities

           Since September 11, 2001, the private sector has been eager to work in
           concert with departments and agencies to define its role in domestic
           preparedness planning, response, and recovery. Even with the establishment
           of the NICC, which has the primary federal responsibility for coordinating
           communications with private critical infrastructure sectors during crisis
           events, there remains an overall disconnect in the information sharing process.

           For example, during the exercise planning process, private sector
           representatives expressed a lack of understanding for the various functions
           within DHS and their respective roles and responsibilities during a crisis
           event. Some planners were confused as to whether the HSOC or the NICC

                            A Review of the Top Officials 3 Exercise
                                            Page 22
                           would be the primary federal contact and source for guidance or information.
                           To further complicate matters, much of the private sector has an ad hoc
                           network of associations and business and trade groups for sharing information
                           on a peer-to-peer level. These organizations may be limited, however, by
                           concerns regarding possible misuse of sensitive or commercial proprietary
                           information.

                           Institutional, privacy concern, and financial barriers also play a role in
                           inhibiting the successful exchange of information with the private sector. For
                           example, InfraGard31 is a secured network sponsored by the FBI that is
                           dedicated to sharing information and intelligence with industry security
                           managers and academic professionals. Membership is free, but access to the
                           network requires that applicants pass an FBI brief records check.32 Some
                           potential applicants may hesitate to join because of privacy concerns.

                           The Information Sharing and Analysis Center (ISAC) is a private sector
                           repository of cyber and physical security risk information for sharing and
                           exchange among critical infrastructure sectors.33 Membership is fee based but
                           there is no background check requirement. The cost to join a specific critical
                           infrastructure sector may be prohibitive, especially to smaller and medium
                           size businesses. For example, the Financial Services ISAC provides five
                           levels of service according to member needs that range from basic
                           membership, which is free, to annual fees of $750 to $50,000.34 Further, the
                           current information sharing networks are not geared towards supporting
                           nongovernmental organizations or small business owners.

                           Since September 11, 2001, representatives from the private sector have stated
                           a need for involvement in domestic disaster planning and for improved
                           communication with the federal government. To some extent, these issues
                           were highlighted during TOPOFF 3. Private sector participants pointed out an
                           asynchronous sharing of information between the federal government and the

31
   InfraGard is an FBI program developed as a partnership with the information technology industry and academia to
support the exchange of information related to cyber security. Since its inception in 1996, InfraGard has expanded
membership to include private sector physical security and risk managers.
32
   This is a criminal history check of various electronic databases used as a screening process to determine whether an
applicant will be allowed to have access to sensitive information.
33
   An ISAC is a private sector coalition where members submit either anonymous or attributed reports about information
security threats, vulnerabilities, incidents, and solutions on a secure database. Currently, 13 member councils represent
the chemical, electrical, energy, emergency management and response, financial, health, highway, information
technology, multi-state, telecommunications, public transit, surface transportation, and water industries.
34
   The Financial Services ISAC is a nonprofit organization serving the needs of the financial services industry to
disseminate physical and cyber security threat, vulnerability, incident, and solution information,
http://www.fsisac.com/benefits/index.htm.

                                               A Review of the Top Officials 3 Exercise
                                                               Page 23
                          private sector during the exercise. “Notwithstanding the benefits provided by
                          co-locating a private sector cell prototype at the NICC, the private sector
                          participants concluded that the information they received from the NICC, the
                          IIMG, and other federal organizations was slow and of insufficient
                          quantity.”35 The lack of a well-defined process for two-way information
                          sharing means that the private sector is not receiving information it may need
                          to make strategic decisions and is not providing federal authorities with
                          critical intelligence and information developed at the state and local level.
                          The ideal format would be an integrated information-sharing model that
                          provides for a seamless, two-way flow of information between the
                          government and the private sector. In actual crisis events, this model could
                          prove beneficial to facilitate the marshaling and use of industry resources in
                          support of domestic incidents, and in return, the private sector would be
                          provided access to accurate and timely information to make informed business
                          decisions.

                          Overall, SLGCP made progress in elevating private sector visibility in
                          national preparedness, response, and recovery planning. However, during the
                          early development stages of TOPOFF 3, SLGCP and the EST did not
                          adequately solicit private sector views on exercise planning and incident
                          management.36 As a result, exercise planners at all levels encountered
                          ambiguity regarding which critical and non-critical sectors would participate
                          and be tested during the exercise. TOPOFF 3 underscored the need to engage
                          the private sector early in the planning and decision-making process.

                          If the partnership between the federal government and private sector is to be
                          successful, another key requirement is establishing a permanent physical
                          location or forum so that critical and non-critical sectors can interface with
                          one another and their federal counterparts. This is essential to developing and
                          maintaining long-term collaborative relationships. During the exercise, the
                          EST along with DHS’ Infrastructure Coordination Division and Private Sector
                          Office piloted a private sector advisory working group, which was located at
                          NICC. Additionally, DHS’ Citizens Corps placed a representative with
                          FEMA at the National Resource Coordination Center, which facilitated better
                          coordination of volunteers and donation management among federal, state,
                          and local organizations. These federal efforts were mirrored at the state level.
                          In both Connecticut and New Jersey, a private sector liaison position was
                          piloted in their respective Emergency Operations Centers. Connecticut went


35
  Department of Homeland Security, Top Officials 3 Full-Scale Exercise, Quick-Look Report, May 26, 2005.
36
  Office of Inspector General, Top Officials 3 Observation Paper #2: Private Sector Integration and Participation,
January 18, 2005.

                                              A Review of the Top Officials 3 Exercise
                                                              Page 24
                          one step further and also piloted an emergency communication network to
                          enhance information sharing with the private sector.

                          Recommendations

                          We recommend that the Executive Director of the Office of State and Local
                          Government Coordination and Preparedness:

                          8. Offer additional training, accompanied by exercise opportunities, to the
                             private sector on how federal departments and agencies operate in
                             response to an Incident of National Significance and Presidential disaster
                             declarations so that the private sector obtains a better understanding of
                             their roles and responsibilities under the NRP and of DHS functions;

                          9. Work and coordinate with the Department of Homeland Security, Private
                             Sector Office to create a central repository for best practices and lessons
                             learned from private industry to facilitate information sharing among
                             critical and non-critical sectors; and

                          10. Work and coordinate with DHS’ Private Sector Office and with private
                              sector entities throughout the exercise planning process to design and
                              implement an effective two-way communication strategy for future
                              exercise participation.

                          DoD Integration was Not Easily Achieved

                          As DoD’s role and responsibility for homeland defense emerges, the ability to
                          coordinate and work effectively with it will become increasingly important for
                          realizing the National Strategy and Preparedness Goal and responding to
                          scenarios developed for exercise or to real events. However, in TOPOFF 3
                          DoD’s Joint Task Force (JTF37) deployments to both states would most likely
                          not have occurred in a real event because state National Guard WMD Civil
                          Support Teams are the first “military” asset used in response to domestic
                          WMD events.38 The WMD Civil Support Teams are state assets and perform

37
   A JTF is a multi-service command comprised of approximately 160 soldiers, sailors, marines, airmen, and DoD
civilian specialists. The JTF provides DoD counter-drug support to federal, regional, state and local law enforcement
agencies throughout the continental United States. It synchronizes and integrates DoD operational, training, and
intelligence support to domestic law enforcement agencies and when directed, the JTF provides operational, training, and
intelligence support to domestic departments and agencies in efforts to combat terrorism.
38
   WMD Civil Support Teams are unique because of their federal/state relationship. They are federally resourced,
trained, evaluated, and they operate under federal doctrine. In addition, WMD Civil Support Teams are not connected
with counterterrorism activities and are involved exclusively in crisis and consequence management activities.

                                              A Review of the Top Officials 3 Exercise
                                                              Page 25
their mission primarily under their governor’s command and control. As a
result, they are available to states in response to incidents well before federal
resources and assets, such as DoD’s, would be called upon. When situations
overwhelm state and local response capabilities and assets, the governor could
then make a request of the President to declare an emergency or major disaster
to receive federal assistance. Paradoxically, the availability of grant funds has
increased the capabilities of state and local governments to respond to an
emergency and therefore renders them less likely to request DoD assistance
and intervention.

Some participants said the scenario reduced their ability to achieve goals and
objectives because it did not present a realistic or plausible sequence of
events. When developing future TOPOFF exercises, SLGCP should embrace
the concept that states and local governments possess an enhanced capability
for responding to all hazard crisis events. It should also balance scenario
development with a better understanding of DoD’s emerging homeland
defense role.

In June 2005, DoD released its Strategy for Homeland Defense and Civil
Support, which reshapes its approach to homeland defense. DoD will support
civil authorities in minimizing the damage and recovering from domestic
chemical, biological, radiological, nuclear, or high yield explosive (CBRNE)
mass casualty attacks. It will be prepared to provide forces and capabilities in
support of domestic CBRNE consequence management, with an emphasis on
preparing for multiple, simultaneous mass casualty incidents. DoD’s
responses will be planned, practiced, and carefully integrated into the national
response.

Recommendations

We recommend that the Executive Director of the Office of State and Local
Government Coordination and Preparedness:

11. Place greater emphasis on creating more realistic and plausible scenarios
    that provide states and local governments an opportunity to achieve
    desired goals and objectives for future TOPOFF exercises; and

12. Engage DoD early in the scenario development process so that its goals
    and objectives are known and realized to determine whether the exercise
    facilitates its actual or simulated participation.




                 A Review of the Top Officials 3 Exercise
                                 Page 26
Additional Issues Which May Affect TOPOFF Exercise Effectiveness
           During the course of our interviews and observations, we encountered three
           other issues that warrant discussion. The first concerns the high investment
           and cost required of participating states and whether or how the federal
           government should provide funding assistance. The second concerns DHS’
           dependency on contractor expertise and support to accomplish what is a
           continuing and increasingly important function. The third concern highlights
           unresolved issues from previous TOPOFF exercises that continue to affect and
           inhibit the ability of organizations at all levels to effectively coordinate an
           integrated response. Finally, we make two additional observations to improve
           the efficiency of future TOPOFF exercises: to integrate mission essential
           tasks and targeted capabilities requirements into the exercise; and, to develop
           mechanisms for top officials and key personnel from other jurisdictions to
           observe or participate.

           Funding Issues

           Connecticut officials said they received approximately $60 million in SHSP
           and UASI program funds for FY 2003 and FY 2004. Approximately
           $1 million was spent on TOPOFF 3 related expenses from the FY 2003 SHSP
           exercise budget to support the series in lieu of conducting their own exercises
           with the same funding. State officials said their choice to participate in
           TOPOFF would not affect any FY 2005 funding. While almost all of
           Connecticut's out-of-pocket costs were covered through federal funds, the
           state contributed approximately 15,000 hours of in-kind salaries during the
           planning process and exercise play, at an estimated value of approximately
           $1 million. When in-kind contributions are considered, Connecticut's
           resource match was 100 percent of the federal grant funds they spent.

           New Jersey officials said they budgeted $1.6 million for TOPOFF related
           expenses and spent $937,264 from a combination of FY 2002, 2003, and 2004
           SHSP and FY 2004 and 2005 UASI program grant funding. Additionally,
           $500,000 in Health Resources and Services Administration and Centers for
           Disease Control and Prevention grant funds was used to support the TOPOFF
           exercise series. Also, state officials estimate they spent approximately
           $450,000 in workforce salaries for their departments of Law & Public Safety,
           Health & Senior Services, Corrections, Environmental Protection, and the
           Governor's Office for the week of exercise. When in-kind contributions are
           considered, New Jersey’s match of state resources was 48 percent of the

                            A Review of the Top Officials 3 Exercise
                                            Page 27
federal grant funds it spent. The state and its partners’ expenditure of time
was well over one year, and more intensely for the three months immediately
preceding the event, planning, organizing, and training for the exercise.
Although New Jersey officials are not sure how this fits into reimbursement
planning, they believe the overall resource and commitment for an event of
this magnitude cannot be underestimated.

The requirement to use SHSP and UASI program funds as a prerequisite for
hosting and participating in TOPOFF exercises is prudent, desired, and
provides an enhanced degree of commitment when making application and
determining selection. We do not believe additional funding should be
provided to states for this effort. We do suggest that SLGCP take under
consideration reimbursing some of the in-kind costs associated with a state’s
overall participation because the commitment of such resources appears to be
significant.

Quantifying Federal Funding Associated with Participation

SLGCP spent approximately $21 million to develop, plan, coordinate,
conduct, and evaluate the exercise (see Appendix G for a breakdown of
SLGCP’s TOPOFF 3 expenditures as of July 2005).

During planning and development meetings at various venue locations, both
the exercise and the Large Scale Game planners from various federal
departments and agencies stated that planning efforts and participation
required they commit funds from their base operating budgets for overtime
and other incidentals. Some planners believed this might have resulted in
several departments and agencies limiting the resources they could commit to
the exercise. Although we solicited funding estimates from at least five
departments and agencies, only two provided us with their estimated costs.

Currently, SLGCP does not collect information from federal departments and
agencies to quantify funding and resources committed to plan and participate
in TOPOFF exercises. For example, FEMA estimates it spent approximately
$500,000 to plan and participate in TOPOFF 3 and the Department of
Veterans Affairs spent approximately $18,500. Without this information from
all participants, it is difficult to obtain a realistic picture of federal expenses
for the series. Doing so would provide a more reasonable estimate of costs. It
would also benefit other departments and agencies as an opportunity to
document costs incurred for use in their current base operating budgets and for
future exercise planning considerations and commitments.


                 A Review of the Top Officials 3 Exercise
                                 Page 28
The TOPOFF series is congressionally mandated and participation in the
exercises will continue to engage top officials and key personnel who have
response and consequence management roles and responsibilities in actual
domestic terrorist events. It will become increasingly important that federal
departments and agencies institutionalize their participation; account for the
costs associated with participation; and, undertake planning and the
commitment of resources for future exercises.

Recommendation

We recommend that the Executive Director of the Office of State and Local
Government Coordination and Preparedness:

13. Solicit from each federal department and agency participating in TOPOFF
    exercises an estimated cost associated with planning and participation.
    After the completion of the exercise, document the costs and
    institutionalize the reporting of such costs.

Reliance on Contractor Support Creates Potential Vulnerability

Since the inception of TOPOFF, there has been a heavy reliance by the federal
government on contractor support to manage, design, plan, conduct, and
evaluate the exercise series. The current contractor has worked on the series
since TOPOFF 2 and has amassed an extensive knowledge of the process and
procedures necessary to conduct the exercise. SLGCP’s current staff is not
able to sustain the management of the series without significant contractor
subject matter expertise and resources. Institutional knowledge of great value
to SLGCP would be lost if the current contactor was no longer actively
engaged. SLGCP officials said they were satisfied with the overall
performance of the current contractor and would not have been able to execute
the exercise without its support and resources. However, SLGCP also has
concerns about the potential loss of institutional knowledge when a reliance
on contractor support is employed over a length of time. Although there has
been reliance by the federal government on contractor support to manage,
design, plan, conduct, and evaluate the exercise series, SLGCP said it would
be cost prohibitive to hire short-term employees to supplement the National
Exercise Program staff. It believes institutional knowledge is imbedded with
its federal staff responsible for directing contract support teams.

To obtain and maintain institutional knowledge and minimize vulnerability,
we suggest SLGCP work towards building additional capability and staff


                 A Review of the Top Officials 3 Exercise
                                 Page 29
                           resources to manage and direct the series itself and reduce its reliance on
                           outside contractor provided expertise.

                           Issues Identified in Previous Exercises Remain Unresolved

                           During the After Action Conference, participants said the same issues
                           identified for resolution in previous TOPOFF exercises were repeated. Some
                           of the issues that require resolution are: (1) amending the definition of a
                           major disaster in the Stafford Act to include WMD events; (2) reconciling
                           federal, state, and local plans and procedures within the framework of the
                           Homeland Security Advisory System (HSAS);39 and (3) enhancing the
                           capability of the Domestic Emergency Support Team (DEST).40

                           In TOPOFF 2, both states requested federal assistance under the Stafford Act.
                           However, the simulated events in Illinois did not qualify as a major disaster
                           because biological disasters are not cited in the Act and are interpreted as
                           ineligible by FEMA. The Secretary of HHS declared a public health
                           emergency under authorities in the Public Health Service Act, which
                           permitted HHS to authorize only specific federal assets in response to the
                           biological event. HHS was responsible for costs associated with the response.
                           Under a major disaster declaration, additional federal resources are available
                           and federal costs associated with response can be reimbursed. Between
                           TOPOFF 2 and TOPOFF 3, there has been no amendment to the Stafford Act
                           to include biological events and FEMA has not changed its interpretation.
                           Further, confusion still exists between the federal resources available under
                           Stafford Act emergency declarations and those available under a public health
                           emergency. The After Action Summary Report for TOPOFF 2 states the need
                           to reconcile federal, state, and local plans and procedures within the
                           framework of HSAS. It found “(u) ncertainty among participants regarding
                           specific protective actions to be taken by specific agencies under a HSAS
                           Severe Threat Condition Red, and many agencies lacked an understanding of
                           the protective actions that might be taken by other agencies or jurisdictions
                           under various threat levels.” The same issue was encountered in TOPOFF 3.



39
   The Homeland Security Advisory System uses five colors: Red=Severe, Orange=High, Yellow-Elevated,
Blue=Guarded, and Green=Low, to alert the public and governmental organizations to the risk of terrorist activities.
40
   A DEST is a rapidly deployable team of trained experts sent to assist the FBI’s investigation at the site of a WMD
incident. Members are chosen according to the nature of the incident from HHS, FEMA, the Department of Energy, the
Environmental Protection Agency, DoD, and other agencies capable of addressing chemical/biological and
nuclear/radiological incidents. The classified version of Presidential Decision Directive 39 explains the roles of the team
in detail.

                                               A Review of the Top Officials 3 Exercise
                                                               Page 30
                           Finally, the DEST provides key subject matter expertise in response to
                           chemical/biological and nuclear/radiological incidents. There is only one
                           deployable DEST and the need for additional personnel to staff a second team
                           when simultaneous events warrant deployment was identified in TOPOFF 2.
                           The issue was encountered again in TOPOFF 3.

                           Unresolved issues continue to affect and inhibit the ability of departments and
                           agencies at all levels to effectively coordinate. Systematic and deliberate
                           processes need to be developed that document issues and create avenues for
                           resolution. With the availability of lessons learned, After Action Reports, and
                           best practices from previous exercises, SLGCP should be able to identify and
                           document, with minimal effort, reoccurring issues for tracking until resolved.

                           Recommendation

                           We recommend that the Executive Director of the Office of State and Local
                           Government Coordination and Preparedness:

                           14. Develop an action-tracking program that identifies and documents issues
                               and recommendations made in TOPOFF exercises that can be used as a
                               means for issue resolution.

                           Incorporate the Universal Task List and Target Capabilities List

                           In planning for TOPOFF 3, SLGCP was developing a Universal Task List
                           (UTL41) and Target Capabilities List (TCL42) to define homeland security
                           tasks required to prevent, respond to, and recover from major terrorist attacks,
                           natural disasters, and other emergencies. The UTL and TCL are derived from
                           the 15 National Planning Scenarios and are building block tools and a
                           foundation for developing training and exercise programs as required by
                           HSPD-8. The UTL and TCL provide officials a framework for assessing their
                           level of preparedness and targeting resources to address their greatest needs.
                           Both supplement the NRP and NIMS goals of presenting an integrated
                           approach for preventing and responding to threats and incidents regardless of
                           cause, size or complexity. When developing the scenario, SLGCP planners
                           did not include mission essential tasks and targeted capabilities requirements
                           into the exercise. We encourage the integration of the UTL and TCL into

41
   The UTL provides a common language and common reference for homeland security authorities at all levels of
government and the private sector. It describes what tasks are to be performed in terms common to incident
management.
42
   The TCL is a set of 36 essential capabilities that should be developed and maintained, in whole or in part, by various
levels of government to prevent, protect against, respond to, and recover from terrorist attacks and major disasters.

                                               A Review of the Top Officials 3 Exercise
                                                               Page 31
        future TOPOFF exercises. SLPCP said the UTL and TCL were in the
        developmental stages during the planning process for TOPOFF 3 and could
        not be included in the exercise. However, the lists will be integrated into
        future exercises.

        Incorporate Additional Opportunities for Observation

        Efforts to plan future exercises should explore new and innovative ways to
        share learning opportunities with top officials and key personnel from other
        jurisdictions. For example, the design of TOPOFF 3 did not provide adjacent
        states with an opportunity to observe or participate. Had the exercise been a
        real event, adjacent states would likely have had a response or recovery role.
        Emphasis should be placed on providing state and local governments with
        additional opportunities to observe exercise play in either a notional or virtual
        environment. We encourage SLGCP to cultivate and explore mechanisms
        that afford additional observation. Doing so would increase the benefits of the
        series to additional state and local governments.

        SLGCP responded they would continue to incorporate additional opportunities
        for observation from surrounding states and jurisdictions. For example,
        during TOPOFF 3, Connecticut engaged Massachusetts and New Jersey
        Urban Search and Rescue teams to participate. Additionally, representatives
        from Rhode Island participated in planning session and MSEL development
        and the New Jersey venue hosted observers from New York and
        Pennsylvania.


Management Comments and OIG Analysis
        We evaluated SLGCP’s written comments and have made changes to the
        report where we deemed appropriate. Below are a summary of the written
        response to the report and our analysis of the response.

        On October 12, 2005, SLGCP officials provided written comments that, in our
        opinion, did not address the findings and recommendations we made in the
        report but rather served as a commentary on how the report should be
        restructured to accommodate what SLGCP believed to be areas that fall inside
        and outside their control.

        SLGCP proposed substantive changes to the text and reorganized the report
        into two distinct sections. It did not disagree with the findings and 14
        recommendations made in the report. However, it redirected four

                         A Review of the Top Officials 3 Exercise
                                         Page 32
recommendations to other DHS components, one to the Government
Accountability Office, the Office of Management and Budget, or Congress,
and proposed four additional recommendations.

SLGCP commented that the first section of the report should cover an
assessment of the exercise planning process and execution of the full-scale
exercise and that the second section should cover an analysis and discussion
of policy issues related to the national preparedness plan, the NRP, and NIMS.
We believe SLGCP separated the topics in this manner to highlight
unresolved policy issues it could not address given its scope and authority. A
stated objective of TOPOFF 3 was to “improve the nation’s capacity to
prevent, respond to, and recover from terrorist attacks in accordance with
DHS protocols by using the NRP and NIMS.” As such, our discussions of
whether the NRP and NIMS protocols were successfully executed within the
framework of TOPOFF 3 were relevant and appropriate and we disagreed
with SLGCP’s comment that the report be separated.

Where appropriate, we included SLGCP’s comments that added pertinent
information to the report. We included (1) a more descriptive narrative to
clarify discussions on the venue solicitation and selection process; (2) a
discussion that it may be cost prohibitive for SLGCP to hire short term
employees to supplement the National Exercise Program staff; (3) a
clarification that the UTL and TCL were in developmental stages during the
exercise and could not be included in the exercise; and, (4) a discussion of
SLGCP’s efforts to incorporate additional opportunities for states and local
jurisdictions to participate in exercise planning and observation.

SLGCP redirected four recommendations to other DHS components such as
the Office of the Secretary, Chief Information Officer, and the Interagency
Incident Management Group. We do not agree with redirecting the
recommendations. We did, however, modify the report to reflect that some
actions required to correct unresolved policy issues fall beyond SLGCP’s
scope and authority. We emphasized the need for SLGCP to work and
coordinate with other DHS components in correcting issues that inhibited
exercise participants from achieving an effective, coordinated, and integrated
response within TOPOFF 3. Further, we revised one of our recommendations
to clarify that SLGCP should work with private sector entities to design and
implement an effective two-way communication system for use in future
TOPOFF exercises.

In its written response, SLGCP added four recommendations. We agreed with
two as proposed, (1) that SLGCP incorporate realistic response times for

                A Review of the Top Officials 3 Exercise
                                Page 33
federal assets into future exercise scenarios; and (2) that FEMA train all levels
government on the NRP and NIMS. However, we did not include SLGCP’s
additional recommendations.

With our inclusion of SLGCP’s two recommendations, an additional
recommendation has been directed to FEMA for response and action. In our
draft report, only one recommendation was directed to FEMA’s Director for
response and action. FEMA officials said it was unable to provide comments
due to their Hurricane Katrina response and recovery efforts. This report
contains 2 recommendations for the action of FEMA’s Director and 12 for the
action of the SLGCP’s Executive Director. All recommendations remain
open.

Below we summarize SLGCP’s written comments to the report’s
recommendations and our analysis of their response.

Recommendations

We recommend that the Executive Director of the Office of State and Local
Government Coordination and Preparedness:

Recommendation 1: Work with federal entities to ensure realistic response
times for federal assets during exercise play.

SLGCP Response: SLGCP added this recommendation.

OIG Evaluation: We concur. During the TOPOFF 3 exercise, participants
said pre-deployment of large-scale federal assets was unrealistic. As a result,
exercise events did not evolve and unfold naturally. In the early stages of
exercise development, SLGCP needs to work more closely with federal
entities to ensure that the scenario is realistic and useful. The
recommendation is resolved and open.

Recommendation 2: Continue to exercise NRP and NIMS with all levels of
government.

SLGCP Response: SLGCP responded that the training requirement be
deleted from the recommendation.

OIG Evaluation: We concur. Training on the NRP and NIMS is the
responsibility of FEMA’s National Integration Management System Center.
The recommendation is resolved and open.

                 A Review of the Top Officials 3 Exercise
                                 Page 34
We recommend that the Director of the Federal Emergency Management
Agency:

Recommendation 3: Consult with federal departments and agencies to
develop operating procedures that clearly define individual and organizational
roles and responsibilities under the NRP.

FEMA Response: FEMA did not provide a response due to their Hurricane
Katrina response and recovery efforts.

OIG Evaluation: The recommendation is unresolved and open because no
response was provided.

Recommendation 4: Continue to train NRP and NIMS with all levels of
government.

SLGCP Response: SLGCP added this recommendation.

OIG Evaluation: We concur. FEMA’s National Integration Management
System Center is the primary federal entity responsible for providing training
and education on the NRP and NIMS. The recommendation is unresolved and
open because FEMA has not had an opportunity to respond.

We recommend that the Executive Director of the Office of State and Local
Government Coordination and Preparedness:

Recommendation 5: Work and coordinate with the Department of Homeland
Security, Office of the Secretary to clarify the designation process for an
Incident of National Significance and define the resources and assets that
thereby become available to state and local governments.

SLGCP Response: SLGCP redirected the recommendation to the
Department of Homeland Security, Office of the Secretary.

OIG Evaluation: SLGCP believes this issue is beyond its scope and
authority to correct. We do not agree. However, the recommendation has
been modified to emphasize that SLGCP should work and coordinate with
DHS’ Office of the Secretary to clarify the designation process for use in
future TOPOFF exercises. The recommendation is unresolved and open.




                A Review of the Top Officials 3 Exercise
                                Page 35
Recommendation 6: Work with the Department of Homeland Security,
Office of the Secretary to develop a disaster and emergency powers
compendium for all states so that federal resources and assets may be more
effectively coordinated during national exercise play.

SLGCP Response: SLGCP redirected the recommendation to the
Department of Homeland Security, Office of the Secretary.

OIG Evaluation: SLGCP believes this is a national policy issue that is
beyond its scope and authority to correct. We do not agree. However, the
recommendation has been modified to emphasize that SLGCP should work
and coordinate with the DHS’ Office of the Secretary to develop a disaster
and emergency powers compendium for use in future TOPOFF exercises.
The recommendation is unresolved and open.

Recommendation 7: Design an information management system for use in
future exercises that allows participants to track and share information more
openly and efficiently; and, standardize the format and methodology for
collecting and reporting information.

SLGCP Response: SLGCP redirected the recommendation to the
Department of Homeland Security, Chief Information Officer.

OIG Evaluation: We do not agree, but have modified the recommendation
to emphasize that SLGCP should develop an information tracking system for
use in future TOPOFF exercises. We agree, however, that DHS’ Chief
Information Officer should be consulted during system development. The
recommendation is unresolved and open.

Recommendation 8: Offer additional training, accompanied by exercise
opportunities, to the private sector on how federal departments and agencies
operate in response to an Incident of National Significance and Presidential
disaster declarations so that the private sector obtains a better understanding
of their roles and responsibilities under the NRP and of DHS functions.

SLGCP Response: SLGCP did not respond to the recommendation.

OIG Evaluation: The recommendation is unresolved and open because no
response was provided.




                 A Review of the Top Officials 3 Exercise
                                 Page 36
Recommendation 9: Work and coordinate with the Department of Homeland
Security, Private Sector Office to create a central repository for best practices
and lessons learned from private industry to facilitate information sharing
among critical and non-critical sectors.

SLGCP Response: SLGCP did not respond to the recommendation.

OIG Evaluation: The recommendation is unresolved and open because no
response was provided.

Recommendation 10: Develop and implement a plan and uniform protocols
to establish two-way communication and information sharing with the private
sector; and, establish a primary federal point of contact during local incidents,
Incidents of National Significance, and Presidential disaster declarations.

SLGCP Response: SLGCP redirected the recommendation to the
Department of Homeland Security, Chief Information Officer and added
language, which required using the Homeland Security Information Network.
In addition, SLGCP added a recommendation that it “Work with private sector
entities throughout the exercise planning process to ensure benefits are gained
from exercise play.”

OIG Evaluation: SLGCP believes the recommendation as originally
presented is beyond its scope and authority to correct. We concur and have
revised the recommendation to clarify that SLGCP should work with DHS’
Private Sector Office and the private sector throughout the exercise planning
process to develop an effective two-way communication strategy for private
sector participation in future TOPOFF exercises. However, we do not agree
with redirecting the recommendation.

We do not accept SLGCP’s additional recommendation because it would be a
difficult performance standard to measure. The revised recommendation is
unresolved and open because SLGCP has not had an opportunity to respond.

(Revised) Recommendation 10: Work and coordinate with DHS’ Private
Sector Office and with private sector entities throughout the exercise planning
process to design and implement an effective two-way communication
strategy for future exercise participation.




                 A Review of the Top Officials 3 Exercise
                                 Page 37
Recommendation 11: Place greater emphasis on creating more realistic and
plausible scenarios that provide states and local governments an opportunity
to achieve desired goals and objectives for future TOPOFF exercises.

SLGCP Response: SLGCP did not respond to the recommendation.

OIG Evaluation: The recommendation is unresolved and open because no
response was provided.

Recommendation 12: Engage DoD early in the scenario development
process so that its goals and objectives are known and realized to determine
whether the exercise facilitates its actual or simulated participation.

SLGCP Response: SLGCP did not respond to the recommendation.

OIG Evaluation: The recommendation is unresolved and open because no
response was provided.

Recommendation 13: Solicit from each federal department and agency
participating in TOPOFF exercises an estimated cost associated with planning
and participation. After the completion of the exercise, document the costs
and institutionalize the reporting of such costs.

SLGCP Response: SLGCP redirected the recommendation to the
Government Accountability Office, the Office of Management and Budget, or
Congress.

OIG Evaluation: We do not agree. Participants do not provide costs
associated with participating in TOPOFF because SLGCP does not solicit it.
SLGCP is in direct contact with planners and participants and is positioned
better than these entities to collect an estimate of exercise costs and a more
accurate representation of costs after the exercise. The recommendation is
unresolved and open.

Recommendation 14: Develop an action-tracking program that identifies
and documents issues and recommendations made in TOPOFF exercises that
can be used as a means for issue resolution.

SLGCP Response: SLGCP did not respond to the recommendation.

OIG Evaluation: The recommendation is unresolved and open because no
response was provided.

                A Review of the Top Officials 3 Exercise
                                Page 38
              Appendix A
              Purpose, Scope, and Methodology



Purpose, Scope, and Methodology
              We reviewed the efforts of DHS’ SLGCP to develop, plan, coordinate, and
              execute the TOPOFF 3 exercise. The objectives of our review were to
              determine whether preparation for and conduct of the exercise effectively
              achieved overarching objectives established by SLGCP and whether the
              scenario and level of participation supported achieving those objectives. We
              did not evaluate the performance of any participant. Last, the scope of our
              review did not include an assessment of the United Kingdom and Canada’s
              participation in the TOPOFF 3 exercise, nor the concurrent ATLANTIC
              BLUE and TRIPLE PLAY exercises.

              We analyzed documents provided by SLGCP including drafts and final
              versions of the Master Scenario, MSEL, Procedural Flow, Control Staff
              Instruction, Communications Plan, and Exercise Plan. We also reviewed
              relevant information posted on the Extranet Secure Portal, Lessons Learned
              and After Action Reports from previous TOPOFF exercises, congressional
              testimony, internet websites, and news articles.

              With the exception of most Intelligence Working Group meetings, we were
              provided open access to all planning meetings, conferences, venues, and
              training sessions.

              We interviewed SLGCP officials, staff, and their contractors responsible for
              planning and implementing TOPOFF 3. We met with exercise planners from
              various federal departments and agencies including the DHS, DoD, HHS,
              FEMA, and the FBI. Also, we met with state and local exercise planners from
              Connecticut and New Jersey as well as planners representing the private
              sector. We attended planning and development meetings at all exercise venue
              locations: the Mid-Term Planning Conference, Final Planning Conference, the
              Large Scale Game Mid-Term Planning Conference, and the After Action
              Conference. We participated in Field Controller, Venue Controller Cell, and
              Data Collector training. Last, we observed the conduct of the TOPOFF 3
              from April 4–8, 2005, in New London, Connecticut; Union and Middlesex
              counties in New Jersey; and, Washington, DC and observed the TOPOFF 3
              Large Scale Game from May 3–5, 2005, in Lansdowne, Virginia.

              Our fieldwork was performed from the inception of TOPOFF 3 planning in
              June 2004 until June 2005. The review was conducted under the authority of
              the Inspector General Act of 1978, as amended, and according to the Quality
              Standards for Inspections issued by the President’s Council on Integrity and
              Efficiency.



                               A Review of the Top Officials 3 Exercise
                                               Page 39
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 40
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 41
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 42
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 43
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 44
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 45
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 46
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 47
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 48
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 49
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 50
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 51
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 52
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 53
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 54
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 55
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 56
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 57
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 58
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 59
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 60
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 61
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 62
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 63
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 64
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 65
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 66
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 67
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 68
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 69
Appendix B
Management Response to Draft Report




                 A Review of the Top Officials 3 Exercise
                                 Page 70
Appendix C
Federal Departments and Agencies Represented During TOPOFF 3




American Red Cross
Bureau of Alcohol, Tobacco, Firearms, and Explosives
Centers for Disease Control
Department of Agriculture
Department of Commerce
Department of Defense
Department of Energy
Department of Health and Human Services
Department of Homeland Security
Department of Housing and Urban Development
Department of Interior
Department of Justice
Department of Labor
Department of State
Department of Transportation
Department of Treasury
Department of Veterans Affairs
Environmental Protection Agency
Federal Aviation Administration
Federal Bureau of Investigation
General Service Administration
Office of Emergency Planning, Preparedness, and Operations
National Aeronautics and Space Administration
National Oceanic Atmospheric Administration
Nuclear Regulatory Commission
U.S. Small Business Administration
U.S. Marshals Service




                 A Review of the Top Officials 3 Exercise
                                 Page 71
               Appendix D
               Legislation and Policy Used as Framework for the TOPOFF Exercise Series




Homeland Security Act

The Homeland Security Act, P.L. 107-296, provides the Office of Domestic Preparedness, a
component of SLGCP, the primary responsibility within the executive branch of government
to build and to sustain the preparedness of the United States by reducing vulnerabilities and
preventing, responding, and recovering from acts of terrorism. The responsibility includes
coordinating preparedness efforts at the federal level and working with all state, local, tribal,
parish, and private sector emergency response providers on matters pertaining to combating
terrorism including training, exercises, and equipment support.

National Strategy for Homeland Security

The July 2002 National Strategy for Homeland Security directed that Department of
Homeland Security (DHS) “build a national training and evaluation system.” DHS was to
consolidate and expand existing training and evaluation systems and this system would be
predicated on a four-phased approach: requirements, pans, training (and exercises), and
assessments (evaluations and corrective action plans). Further, DHS was directed to
establish a National Exercise Program designed to educate and evaluate civilian response
personnel at all levels of government. DHS is to use these exercises to measure performance
and allocate future resources.

Homeland Security Presidential Directive–8

The HSPD–8 sets forth policies to strengthen the preparedness of the United States to prevent
and respond to threatened or actual domestic terrorist attacks, major disasters, and other
emergencies by requiring a “national domestic all hazards preparedness goal,” establishing
mechanisms for improved delivery of federal preparedness assistance to state and local
governments, and outlining actions to strengthen the preparedness capabilities of federal,
state, and local entities. HSPD–8 directs DHS’ Secretary, in coordination with the heads of
other appropriate federal departments and agencies and in consultation with state and local
governments, to develop a national domestic all hazards preparedness goal, the National
Preparedness Goal. DHS’ Secretary charged SLGCP with leading the effort to develop and
implement the National Preparedness Goal.




                                 A Review of the Top Officials 3 Exercise
                                                 Page 72
               Appendix D
               Legislation and Policy Used as Framework for the TOPOFF Exercise Series




National Preparedness Goal and National Preparedness System

The National Preparedness Goal provides the foundation for a National Preparedness System
to establish interconnected and complementary programs under a common approach. The
National Preparedness System is to provide the tools and processes that realign existing
preparedness programs and efforts to support the National Preparedness Goal and to enhance
operational preparedness. The National Preparedness System has four main components,
each providing opportunities for all levels of government to work together: (1) Strategic
Direction involves developing the National Preparedness Goal and priorities, including the
National Planning Scenarios, Universal Task List, and Target Capabilities List, issuance of
National Preparedness Guidance, and updating federal, state, local, and tribal preparedness
strategies as appropriate; (2) Planning and Resource Allocation involves capabilities based
planning to assess needs, allocate resources, and deliver programs that build prioritized
capabilities to manage the risks that pose the greatest threat; (3) Execution involves
demonstrating capability through training, exercises, and evaluation to identify lessons
learned, share best practices, and initiate improvements; and (4) Feedback involves assessing
and reporting on the progress and effectiveness of efforts throughout the system to achieve
the National Preparedness Goal and priorities.

Homeland Security Presidential Directive–5

The HSPD–5 sets forth policies and provides for a consistent nationwide approach for
federal, state, and local governments to work effectively and efficiently together to prepare
for, respond to, and recover from domestic incidents regardless of cause, size, or complexity.
It provides for interoperability and compatibility among federal, state, and local capabilities
through National Response Plan (NRP) and includes a core set of concepts, principles,
terminology, and technologies covering the Incident Command System, multi-agency
coordination systems; Unified Command; training; identification and management of
resources (including systems for classifying types of resources); qualifications and
certification; and the collection, tracking, and reporting of incident information and incident
resources. The NRP is built on the template of the National Incident Management System
(NIMS), which provides a consistent doctrinal framework for incident management at all
jurisdictional levels, regardless of the cause, size, or complexity of the incident.




                                 A Review of the Top Officials 3 Exercise
                                                 Page 73
                        Appendix E
                        Additional National Requirements and Authorizations Prior to the Department of Homeland
                        Security


        National Requirements and Authorizations for the TOPOFF Exercise Series Prior to
        the Creation of the Department of Homeland Security43

        Senate Report 105-235, July 2, 1998 – Aware that numerous exercises were conducted each
        year to practice operations in the event of a terrorist incident, the U.S. Senate understood that
        few of the top officials of agencies had ever fully participated in these exercises. The Senate
        therefore directed that an exercise be conducted in fiscal year 1999 with the participation of
        all key personnel who would participate in the consequence management of such an actual
        terrorist event.

        House Report 105-825, October 19, 1998 – The U.S. House of Representatives agreed with
        the Senate recommendation and provided funding for the first TOPOFF exercise, TOPOFF
        2000.

        Senate Report 106-404, September 8, 2000 – After TOPOFF 2000, the Senate made the
        following recommendations for the design of future TOPOFF exercises:

            •   Exercises will be based on an analysis of the threat.
            •   Threats will be described in terms of capability, intent, probability, and potential
                consequences.
            •   Sound, detailed, and continuous assessments will help ensure that specific programs
                and related expenditures are justified and targeted according to the threat and risk of
                validated terrorist attack scenarios.
            •   A multi-disciplinary team of experts will generate threat analyses and develop a plan
                for ensuring their currency.
            •   TOPOFF will include a regularly scheduled sequence of increasingly challenging
                exercise building blocks. This exercise cycle should strengthen preparedness through
                issue-oriented seminars, tabletop exercises, and Command Post Exercises culminating
                in a bi-annual, national, TOPOFF Full Scale Exercise.
            •   TOPOFF will feature participation by key top officials at the federal, state, and local
                levels. Each of the preliminary elements of this program will contribute to the design
                and planning of the TOPOFF Full Scale Exercise.

        Public Law 106–553, December 21, 2000 – The House agreed with the recommendations in
        Senate Report 106-404 and provided funding to expand the TOPOFF program.




43
  Department of Homeland Security, National Exercise Program, TOPOFF 3 Full Scale Exercise Master Plan, March
22, 2005.




                                           A Review of the Top Officials 3 Exercise
                                                           Page 74
                Appendix F
                National Response Plan Implementation Effective Dates




              National Response Plan Implementation Effective Dates

The National Response Plan (NPR) is dated December 2004; i t was released by the Secretary of the
Department of Homeland Security (DHS) on January 6, 2005. The NRP is effective upon issuance
with a phased implementation process during the first year. During the first 120 days of this
implementation process, the Initial NRP, Federal Response Plan, U.S. Government Domestic
Terrorism Concept of Operations Plan, and Federal Radiological Emergency Response Plan remain in
effect. The implementation phases are as follows:

Phase I – Transitional Period (0 to 60 days): This 60-day timeframe is intended to provide a
transitional period for departments and agencies as well as other organizations to modify training,
designate staffing of NRP organizational elements, and become familiar with NRP structures,
processes, and protocols. Day 60 is February 13, 2005.

Phase II – Plan Modification (60 to 120 days): This second 60-day timeframe is intended to
provide departments and agencies the opportunity to modify existing federal interagency plans to
align with the NRP and conduct necessary training. Day 120 is April 14, 2005.

Phase III – Initial Implementation and Testing (120 days to 1 year): Four months after its
issuance, the NRP is to be fully implemented and the Initial NRP, Federal Response Plan, U.S.
Government Domestic Terrorism Concept of Operations Plan, and Federal Radiological Emergency
Response Plan are superseded. Other existing plans remain in effect, modified to align with the NRP.
During this timeframe, DHS will conduct systematic assessments of NRP coordinating structures,
processes, and protocols implemented for actual Incidents of National Significance, national-level
homeland security exercises, and National Special Security Events. These assessments will gauge the
plan’s effectiveness in meeting specific objectives outlined in Homeland Security Presidential
Directive–5 (HSPD–5). At the end of this period, DHS will conduct a one-year review to assess the
implementation process and make recommendations to the DHS’ Secretary on necessary NRP
revisions. Following this initial review, the NRP will begin a deliberate four-year review and re-
issuance cycle. The one-year date is December 15, 2005.




                                  A Review of the Top Officials 3 Exercise
                                                  Page 75
                            Appendix G
                            SLGCP’s TOPOFF 3 Expenditures July 2005




                         Office of State and Local Government Coordination and
                                  Preparedness TOPOFF 3 Expenditures
                                           As of July 11, 200544


             TOPOFF 3 Expenditure Line Items                                                 Totals
LABOR                                                                                    $     7,832,146
TRAVEL                                                                                   $     2,204,439
SUBCONTRACTOR and CONSULTANTS                                                            $     8,752,965
OTHER DIRECT EXPENDITURES                                                                $     2,698,081
EXERCISE EXPENDITURES by CATEGORY
   Initial Planning Conference                                                           $        49,121
   Mid-Term Planning Conference                                                          $       211,128
   Final Planning Conference                                                             $       178,400
   After Action Conference                                                               $       149,909
   TOPOFF 3 Full-Scale Exercise                                                          $    13,088,416
   Cyber Exercise                                                                        $       727,182
         Command Post Exercise                                                           $     1,131,067
         Large Scale Game                                                                $       355,911
         Chemical Seminar                                                                $       480,942
         Biochemical Seminar                                                             $       586,430
         Public Affairs Seminar                                                          $       716,949
         Advance Distance Learning Exercise                                              $       293,264
         Virtual News Network                                                            $     2,494,740
         Information Technology Architecture                                             $     1,024,170
TOTAL TOPOFF 3 EXPENDITURES                                                              $    21, 487,631




44
     Data provided by SLGCP’s contractor Exercise Support Team on July 11, 2005.


                                              A Review of the Top Officials 3 Exercise
                                                              Page 76
Appendix H
Major Contributors to This Report


Marcia Moxey Hodges, Chief Inspector, Department of Homeland Security,
Office of Inspections and Special Reviews

Carolyn Aya Johnson, Inspector, Department of Homeland Security, Office of
Inspections and Special Reviews




                   A Review of the Top Officials 3 Exercise
                                   Page 77
Appendix I
Report Distribution


Department of Homeland Security

Secretary
Deputy Secretary
Executive Director
Chief of Staff
General Counsel
Executive Secretariat
Assistant Secretary for Policy
Office of State and Local Government Coordination and Preparedness
Assistant Secretary, Public Affairs
Chief Security Officer
Director, Exercise and Evaluation Division
DHS OIG Liaison

Office of Management and Budget

Chief, Homeland Security Branch
DHS Program Examiner

Congress

Committee on Homeland Security and Governmental Affairs
United States Senate
Committee on Appropriations
United States Senate
Committee on Homeland Security
U.S. House of Representatives
Committee on Appropriations
U.S. House of Representatives
Committee on Government Reform
U.S. House of Representatives




                      A Review of the Top Officials 3 Exercise
                                      Page 78
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
